UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Division of Marketing Practices
Craig Tregillus
ctregillus@ftc.gov

Direct Dial: (202) 326-2970
Facsimile: (202) 326-3395

July 19, 2007
Harvey I. Lapin, Esq.
Harvey I. Lapin, PC
P.O. Box 1327
Northbrook, IL 60065-1327
Dear Mr. Lapin:
You have requested a staff opinion on whether the FTC Funeral Rule requires a funeral
provider to make its facilities available for a memorial service to families who do not wish to
make any other funeral arrangements with the provider. It is staff’s opinion, for the reasons
which follow, that the Rule does not require a funeral provider to do so.
As you know, Section 453.4(b)(1)(i) of the Rule makes it unlawful for a “funeral
provider” to “[c]ondition the furnishing of any funeral good or funeral service to a person
arranging a funeral upon the purchase of any other funeral good or funeral service, except as
required by law or as otherwise permitted by this part.”1 Section 453.4(b)(2)(ii) grants a safe
harbor, however, providing that “[a] funeral provider shall not violate this section by failing to
comply with a request for a combination of goods or services which would be impossible,
impractical, or excessively burdensome to provide.”2
Section 453.1(i) of the Rule defines a “funeral provider” as “any person, partnership or
corporation that sells or offers to sell funeral goods and funeral services to the public.”3 Because
funeral providers are, by definition, in the business of providing both funeral goods and funeral
services to the public, staff has determined in a prior opinion that the Rule is premised on the
understanding that “funeral providers are persons who furnish funeral arrangements, and not
persons who simply sell a particular good or service as a separate sales transaction.”4 Staff
concluded in that ruling that “for a business operation thus defined to be required to function as
1

16 CFR § 453.4(b)(1).

2

16 CFR § 453.4(b)(2)(ii).

3

16 CFR § 453.1(i).

4

Staff Opinion, Casket & Funeral Supply Association of America (July 18, 1995)
at 1-2, available at http://www.ftc.gov/bcp/conline/edcams/funerals/opinions/opinion95-3.pdf.

Mr. Harvey I. Lapin, Esq.
July 19, 2007
Page 2 of 2
something else, such as a casket seller” would be “impractical,” and that a funeral provider’s
refusal to sell caskets at retail to individuals who do not also wish to make funeral arrangements
accordingly would fall within the safe harbor provided by Section 453.4(b)(2)(ii).5
Your request similarly asks whether the Rule requires a funeral provider to make its
facilities available for a memorial service to families who do not wish to make any other funeral
arrangements with the provider. Our prior staff opinion quotes the following excerpt from the
original Statement of Basis and Purpose for the Rule that is of particular relevance to this
question:
“[T]he Commission would not consider it a violation of section 453.4(b) for a
funeral provider to refuse doing business with a consumer who said ‘we have our
own casket, transportation, flowers, etc., but wish to use your viewing facilities
for two hours next Monday.’”6
In view of this unambiguous statement of the Commission’s views, it continues to be
staff’s opinion that it is not “the Commission’s intention to require a funeral provider to sell an
isolated good or service that is not to be used in conjunction with a funeral arranged by that
funeral provider.”7 We see no principled basis for distinguishing the use of a funeral provider’s
facilities for a memorial service from their use for a viewing.
As you know, the views expressed in this letter are those of the FTC staff. They have not
been reviewed, approved, or adopted by the Commission, and they are not binding on the
Commission or any individual Commissioner. However, they do reflect the views of FTC staff
charged with enforcement of the Funeral Rule. Staff Funeral Rule opinions are routinely posted
on the FTC website at http://www.ftc.gov/bcp/conline/edcams/funerals/staffopinions.shtm.
Sincerely,
/s/
Craig Tregillus
Funeral Rule Coordinator

5

Id. at 2.

6

47 FR 42260, 42282 n.230 (Sept 24, 1982).

7

Staff Opinion, supra n.4, at 2.

